          SENSITIVE BUT UNCLASSIFIED

     United States Department of State

   and the Broadcasting Board of Governors

              Ofﬁce of Inspector General





                Report of Inspection

      Inspection of

  the Regional Consular 

   Ofﬁcer and Consular 

 Management Assistance 

     Team Programs

 Report Number ISP-I-11-18, January 2011




                           IMPORTANT NOTICE
This report is intended solely for the ofﬁcial use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy
directly from the Ofﬁce of Inspector General. No secondary distribution may be made,
in whole or in part, outside the Department of State or the Broadcasting Board of
Governors, by them or by other agencies or organizations, without prior authorization
by the Inspector General. Public availability of the document will be determined by
the Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this
report may result in criminal, civil, or administrative penalties.




          SENSITIVE BUT UNCLASSIFIED

                  SENSITIVE BUT UNCLASSIFIED



             PURPOSE, SCOPE AND METHODOLOGY

                    OF THE INSPECTION


This inspection was conducted in accordance with the Quality Standards for Inspec-
tions, as issued by the Council of the Inspectors General on Integrity and Efﬁciency,
and the Inspector’s Handbook, as issued by the Ofﬁce of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors
(BBG).


PURPOSE

The Ofﬁce of Inspections provides the Secretary of State, the Chairman of the
BBG, and Congress with systematic and independent evaluations of the operations
of the Department and the BBG. Inspections cover three broad areas, consistent
with Section 209 of the Foreign Service Act of 1980:


• 	 Policy Implementation: whether policy goals and objectives are being effective-
    ly achieved; whether U.S. interests are being accurately and effectively repre-
    sented; and whether all elements of an ofﬁce or mission are being adequately
    coordinated.
• 	 Resource Management: whether resources are being used and managed with
    maximum efﬁciency, effectiveness, and economy and whether ﬁnancial transac-
    tions and accounts are properly conducted, maintained, and reported.
• 	 Management Controls: whether the administration of activities and operations
    meets the requirements of applicable laws and regulations; whether internal
    management controls have been instituted to ensure quality of performance
    and reduce the likelihood of mismanagement; whether instance of fraud,
    waste, or abuse exist; and whether adequate steps for detection, correction, and
    prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appro-
priate, circulated, reviewed, and compiled the results of survey instruments; con-
ducted on-site interviews; and reviewed the substance of the report and its ﬁndings
and recommendations with ofﬁces, individuals, organizations, and activities affected
by this review.




                  SENSITIVE BUT UNCLASSIFIED

                                                    United States Department of State
                                                    and the Broadcasting Board of Governors

                                                    Office of Inspector General




                                         PREFACE


     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                           Harold W. Geisel
                                           Deputy Inspector General
                            SENSITIVE BUT UNCLASSIFIED





                                TABLE OF CONTENTS

KEY JUDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

CONTEXT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

REGIONAL CONSULAR OFFICER PROGRAM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

      Program Supervision . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

      Program Support . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

      Guidelines and Standard Operating Procedures . . . . . . . . . . . . . . . . . . . . . . . 6

      Program Web Sites. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

CONSULAR MANAGEMENT ASSISTANCE TEAM PROGRAM. . . . . . . . . . . . . . . . . . . . . . . . . . 9

      Program Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

      Team Visits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

      Reports, Recommendations, and Follow-up . . . . . . . . . . . . . . . . . . . . . . . . . 10

LESSONS LEARNED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

LIST OF RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

LIST OF INFORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17





                           SENSITIVE BUT UNCLASSIFIED

                        SENSITIVE BUT UNCLASSIFIED





                               KEY JUDGMENTS

 •    The Regional Consular Ofﬁcer (RCO) and the Consular Management
      Assistance Team (CMAT) programs are highly successful in providing in-depth
      functional expertise and managerial advisory support to individual consular
      sections and by extension to mission management.
 • 	 The RCO program management that is provided by the senior management
     advisor in the executive ofﬁce of the Bureau of Consular Affairs (CA/EX) and
     the RCO supervisor stationed in Cairo, Egypt, is less than ideal, given that the
     primary locus of RCO program operations is in Frankfurt, Germany.
 • 	 While the RCO program is generally successful, additional value could be
     gained through management improvements such as additional travel expendi-
     ture oversight, better codiﬁed RCO reporting guidance, and follow-up proce-
     dures for ensuring compliance with the recommendations in RCO reports.
 • 	 The primary RCO informational Web site, the RCO Forum, requires content
     review for relevance, accuracy, and timeliness.
 • 	 The CMAT Program responds well to post requests for short-term substantive
     and managerial assistance, but could be more effective if it had better proce-
     dures for following up on CMAT report recommendations.
    The inspection took place in Washington, DC, between September and
 November 2010. (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
 (b) (6)(b) (6)(b) (6)(b) (6)




OIG Report No. ISP-I-11-18 - RCO and CMAT Programs - January 2011                       1 .


                        SENSITIVE BUT UNCLASSIFIED
      SENSITIVE BUT UNCLASSIFIED





2 .           OIG Report No. ISP-I-11-18 - RCO and CMAT Programs - January 2011


      SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED





                                        CONTEXT

     The Bureau of Consular Affairs (CA) established the RCO and CMAT programs
 as managerial tools to assist posts overseas. Both programs are coordinated by the
 senior management adviser in CA/EX.

     CA expanded the RCO program in 2001 to employ full-time RCOs instead of
 assigning collateral assistance duties for smaller missions in the area to senior con-
 sular ofﬁcers in selected large posts. CA considers all RCOs to be employees of
 CA/EX whether posted abroad or in the Department. At present, there are seven
 RCOs responsible for mentoring and advising 90 posts in the Middle East, Africa,
 Europe, South and Central Asia, Central and South America, and East Asia and the
 Paciﬁc. The supervisory RCO is based in Cairo, the others in Frankfurt, Johannes-
 burg, Bangkok, and Washington, DC. The frequency of RCO visits varies based on
 post size, experience of post consular managers, and RCO analysis of post perfor-
 mance. CA allocates Machine-Readable Visa (MRV) funds for each RCO to travel to
 covered posts.

      CMATs were launched in early 2003 to assist posts in managing procedural
 changes enacted after 9/11. Teams are headed by a senior consular ofﬁcer and vary
 in composition. They serve as CA management consultants to ensure implementa-
 tion of critical security-related requirements, strict management controls, effective
 utilization of resources, and adherence to standard operating procedures. To date,
 CMATs have visited more than 140 posts overseas and will visit 24 more in 2010. CA
 schedules visits based on requests from posts, critical security threats, and perceived
 need. CA budgeted $250,000 in FY 2010 for CMATs, including $35,000 in travel
 costs.

     The OIG team found that both programs successfully provide in-depth func-
 tional expertise and management advisory support to individual consular sections
 and by extension to mission management. Surveys of beneﬁciaries of both programs
 report, in general, a high degree of satisfaction with RCO and CMAT visits and out-
 comes. This report contains recommendations regarding the location of the super-
 visory RCO, RCO program management, reporting guidance and follow-up in both
 programs, and RCO program information sources.




OIG Report No. ISP-I-11-18 - RCO and CMAT Programs - January 2011                          3 .


                        SENSITIVE BUT UNCLASSIFIED
      SENSITIVE BUT UNCLASSIFIED





4 .           OIG Report No. ISP-I-11-18 - RCO and CMAT Programs - January 2011


      SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED





   REGIONAL CONSULAR OFFICER PROGRAM

     The successful RCO program provides comprehensive support for small, iso-
 lated consular sections, and management and oversight guidance to larger posts as
 well. RCOs are, in effect, part information resource, part mentor, and part manage-
 ment consultant. They offer hands-on guidance to ensure adherence to laws, regula-
 tions, procedures, policies, and internal controls. They establish relationships with
 deputy chiefs of mission or principal ofﬁcers to ensure appropriate supervision from
 front ofﬁces. They provide written assessments within 30 days that are distributed to
 the posts, CA, and the regional bureaus, with analysis of stafﬁng and workload levels,
 internal controls, and management systems. Where appropriate, they provide and ar-
 range training.



 PROGRAM SUPERVISION
     While the overall RCO program is strong and has positive effects, program
 coordination is problematic. While all RCOs are members of a virtual team, none
 have on-site supervision. The supervisory RCO has a full portfolio of posts and
 supervises and evaluates performance of the other six RCOs. They communicate by
 telephone or Internet, and face-to-face encounters are infrequent. The supervisory
 RCO provides general guidelines but leaves program implementation to the individ-
 ual RCOs. With regard to reports, the supervisory RCO offers collegial advice and
 provides feedback.

     The MRV funding allotment to hosting posts covers administrative costs, equip-
 ment purchases, and travel. Each RCO must pay close personal attention to proper
 accounting of travel expenses, as well as time and attendance issues, such as annual
 leave, compensatory time, and time-in-travel status. RCOs prepare their travel sched-
 ules well in advance, given the often complicated air travel connections and distances.
 Each RCO has an open travel authorization. Travel plans and speciﬁc arrangements
 including trip changes and cancellations are left to the RCO. Prior approval by the
 supervisory RCO or the CA/EX coordinator is not required, though in practice
 both the supervisory RCO and CA/EX do review the RCOs’ travel plans. At host
 missions, travel vouchers are approved by the consular section chiefs who have no
 ﬁduciary responsibility for actual expenditures, and are processed to conclusion by



OIG Report No. ISP-I-11-18 - RCO and CMAT Programs - January 2011                          5 .


                        SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




      the home post ﬁnancial management ofﬁce. There is no centralized review of RCO
      travel expenditures by the supervisory RCO or in CA/EX. In sum, the proper use
      of travel funds depends on the personal integrity of the RCO. While there are no
      known problems, this lack of program oversight is a potential vulnerability.


         Recommendation 1: The Bureau of Consular Affairs should establish over-
         sight over regional consular ofﬁcer travel expenditures. (Action: CA)




      PROGRAM SUPPORT
          The primary locus of operational support for the RCO program is Frankfurt,
      Germany, home to three of the seven RCOs and the RCO administrative assistant.
      The administrative assistant prepares travel and other documentation for the three
      RCOs. While the primary locus of the RCO program is in Frankfurt, the supervi-
      sory RCO is posted to Cairo and does not have much direct contact with the RCOs
      whom she supervises. If relocated to Frankfurt, the supervisory RCO could more
      directly supervise two or three of the RCOs, exercise greater in-depth management
      controls, ease the administrative burden on the ofﬁce in Cairo, and make better use
      of the RCO administrative assistant. While retaining an RCO in Cairo may be cost
      effective, good management practices dictate that the supervisory RCO is best lo-
      cated where most of his/her subordinates work.


         Recommendation 2: The Bureau of Consular Affairs, in coordination with
         the Bureau of Near Eastern Affairs and the Bureau of European and Eurasian
         Affairs, should establish the supervisory regional consular ofﬁcer position in
         Frankfurt and consider exceptions to this location in extraordinary circum-
         stances on a case-by-case basis. (Action: CA, in coordination with NEA and
         EUR)




      GUIDELINES AND STANDARD OPERATING PROCEDURES
          The Newcomer’s Guide for Incoming RCOs is thorough and well organized, covering
      a description of the program, the RCO toolkit (Web sites and checklists), recom-
      mended consultations and training, and guidance on trip planning and reporting. In
      the latter regard, the guide incorporates most of the reporting guidance from a

6 .                                OIG Report No. ISP-I-11-18 - RCO and CMAT Programs - January 2011


                   SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




 November 2009 memorandum issued by the supervisory RCO. RCOs use an 18-
 page checklist as guidance for post reviews and a report template. There are no
 formal reporting standard operating procedures, per se, that describe the correct
 report structure, format, and content, as well as classiﬁcation and distribution, for a
 consistent approach. The OIG team informally recommended that the RCO report-
 ing guidance be codiﬁed and updated.

       The guide for RCO-covered posts, entitled Introduction to Your New RCO-Covered
 Post, is less complete than the newcomer’s guide. At only two pages, it provides a
 brief summary of the program and references to the RCO Forum, the RCO check-
 list, and the RCO email collective address. The guide lacks information about the
 RCO team members and contact information, the RCO toolkit, Web site references,
 and post visit and reporting protocols. The OIG team made an informal recommen-
 dation in this regard.

     There is an inherent tension between the RCO’s role as coach, mentor, and
 teacher, and the inspection-like aspects of surveying a post’s consular operations and
 reporting deﬁciencies. At the end of each visit the RCO discusses the ﬁndings with
 the consular ofﬁcer and the post front ofﬁce under a “no-surprises” policy. Sub-
 sequently, the RCO submits to the post, a trip report with suggestions and recom-
 mendations. The report is not punitive and compliance is voluntary. Several RCOs
 reported that on occasion posts fail to respond or avoid contact, with little or no
 subsequent explanation from the consular ofﬁcer or post management. In such cases,
 outstanding consular issues may linger and adversely affect consular operations.
 While it is important that any procedures should follow the RCO’s own direct efforts
 at compliance, they could include intervention by the supervisory RCO or referral to
 CA, if warranted.


     Recommendation 3: The Bureau of Consular Affairs should establish follow-
     up procedures for addressing Regional Consular Ofﬁcer program recommenda-
     tions when posts do not comply. (Action: CA)




 PROGRAM WEB SITES
     The RCO program hosts two Web sites that provide different levels of informa-
 tion and communication. The RCO SharePoint Web site is the electronic “home
 base” for current and archived RCO reports, a shared travel and leave calendar,
 consular section photos, and other related documentation. CA/EX owns the site


OIG Report No. ISP-I-11-18 - RCO and CMAT Programs - January 2011                          7 .


                        SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




      that is jointly maintained with the RCO ofﬁce in Frankfurt. Access is restricted to the
      RCO and CA communities and to others on a need-to-know basis. The RCO Forum
      site provides Department-wide access to RCO program information. Hosted by the
      Department’s Intelink intranet Web page, it contains links to Department and post-
      generated reference materials, and a useful discussion page on which any user can
      post a question or comment. However, much of the material on the Forum site is
      out-of-date, and responsibility for maintaining the site is divided between the RCOs
      on an ad hoc basis as time permits.


         Recommendation 4: The Bureau of Consular Affairs should review all ma-
         terials posted on the Regional Consular Ofﬁcer Forum Web site for relevance,
         accuracy, and timeliness, in particular post-produced guidelines and standard
         operating procedures, and establish a process for regular review and updating.
         (Action: CA)




8 .                                 OIG Report No. ISP-I-11-18 - RCO and CMAT Programs - January 2011


                   SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




       CONSULAR MANAGEMENT ASSISTANCE
                TEAM PROGRAM


     CMATs are an effective use of consular management and specialist experts for
 short-term assistance to selected posts. The majority of CMATs result from post re-
 quests, usually via their consular package submissions, while the rest are in response
 to critical security needs, or other speciﬁc issues and problem areas. CA tries to ac-
 commodate all requests but posts with strong consular managers may be given lower
 precedence. For budget reasons, teams usually visit more than one post in the same
 region on a trip. They complement the RCO program whose focus is on smaller
 consular operations, thus providing CA with the capacity to address substantive and
 management consular issues worldwide. OIG survey results of 10 recently-visited
 posts indicated that the CMATS are generally valued for their fresh perspectives and
 helpful suggestions for management improvement. They also serve to give CA senior
 management helpful feedback on their overseas operations.



 PROGRAM MANAGEMENT
     The CA/EX senior management adviser manages the program and, in consulta-
 tion with the CA directorates, proposes CMAT visits to the CA front ofﬁce. He also
 solicits team member nominations from the CA directorates based on expertise and
 staff availability. Four senior consular managers (three retired Foreign Service ofﬁ-
 cers and the CA/EX senior management adviser) lead the CMATs, with three other
 members, including one from the Bureau of Diplomatic Security. The aforemen-
 tioned survey noted several concerns about the composition of the CMATS, includ-
 ing team members with little or no overseas consular experience, and team members
 with outdated knowledge of consular rules and regulations.



 TEAM VISITS
      CMATs are required to look at 18 areas of consular management of particu-
 lar importance to border security within the context of a broader list of topics for
 review. Together, they constitute a deﬁnitive guide for the CMATS and a reminder of
 important issues, policies, and processes that consular managers should consider in
 organizing consular operations and management.
OIG Report No. ISP-I-11-18 - RCO and CMAT Programs - January 2011                         9 .


                        SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



           CMAT visits are intended to be collegial and collaborative, with an emphasis on
       assistance rather than an OIG-style inspection and assessment. They normally last 3
       to 5 days during which the team members meet with American and locally employed
       consular staff, senior post consular managers, and others as required. Team leaders
       debrief post consular managers and senior mission management on their ﬁndings
       and recommendations prior to the team’s departure. The team does not prepare
       or leave a written report at post. Subsequent reports are sent by the CA Assistant
       Secretary to the chief of mission, deputy chief of mission and/or principal ofﬁcer,
       and the chief of consular operations. Separately, CMATs prepare an information
       memorandum exclusively for the CA Assistant Secretary and the CA principal deputy
       assistant secretary to elaborate on the report and convey ﬁndings on sensitive is-
       sues. The CMAT leader debriefs the CA front ofﬁce and senior managers of the CA
       directorates separately.



       REPORTS, RECOMMENDATIONS, AND FOLLOW-UP
           The CMAT trip reporting cables request that posts reply within a speciﬁed pe-
       riod, a request considered to be sufﬁcient incentive for posts to address CMAT ﬁnd-
       ings and recommendations. However, there is no formal compliance mechanism, as
       recommendations are considered informal and implementation is left to the discre-
       tion of the post. Neither is there a formal follow-up mechanism. While the CMAT
       reporting cables are distributed to the appropriate CA directorates whose analysts
       examine them for items of interest, the results of these communications are not
       tracked. In addition, according to the OIG survey of posts visited by CMATS, less
       than half reported receiving feedback on outstanding issues that the teams promised
       to address after return to Washington.

            During the inspection, the OIG team found agreement among several former
       and current CMAT participants that the lack of a follow-up mechanism is an inher-
       ent weakness in the program’s procedures. One opined that a few repeat CMAT
       visits and one OIG special issue inspection might have been avoided had there been
       follow-up on the original recommendations. Another stated that without follow-up
       the CMAT may be perceived as a “paper tiger” and the impact of the CMAT com-
       promised. In sum, the program is demonstrating to some visited posts and CA direc-
       torates a lack of sustained interest in seeing positive results from the CMAT visits.


          Recommendation 5: The Bureau of Consular Affairs should establish a
          follow-up mechanism to track Consular Management Assistance Team recom-
          mendations, post responses, and feedback to visited posts. (Action: CA)

10 .                                OIG Report No. ISP-I-11-18 - RCO and CMAT Programs - January 2011


                    SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED





                             LESSONS LEARNED

      RCO reports often contain programmatic and policy commentary of wider
 applicability. CA has tasked one of the RCOs to initiate a systematic collation of
 lessons learned from RCO visits and trip reports on how consular regulations, policy,
 and training broadly play out in the ﬁeld. The resulting written product culled from
 RCO observations will complement the CMAT-derived posting on the CA intranet
 site entitled CMAT Lessons Learned: What Makes a Great Consular Section. This infor-
 mation has been incorporated into the Foreign Affairs Handbook (7 FAH-1 H-240).
 The OIG team commends CA for its efforts to document lessons learned from both
 programs.




OIG Report No. ISP-I-11-18 - RCO and CMAT Programs - January 2011                        11 .


                        SENSITIVE BUT UNCLASSIFIED
       SENSITIVE BUT UNCLASSIFIED





12 .           OIG Report No. ISP-I-11-18 - RCO and CMAT Programs - January 2011


       SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED





                 LIST OF RECOMMENDATIONS

 Recommendation 1: The Bureau of Consular Affairs should establish oversight
   over regional consular ofﬁcer travel expenditures. (Action: CA)

 Recommendation 2: The Bureau of Consular Affairs, in coordination with the
   Bureau of Near Eastern Affairs and the Bureau of European and Eurasian
   Affairs, should establish the supervisory regional consular ofﬁcer position in
   Frankfurt and consider exceptions to this location in extraordinary circumstances
   on a case-by-case basis. (Action: CA, in coordination with NEA and EUR)

 Recommendation 3: The Bureau of Consular Affairs should establish follow-up
   procedures for addressing Regional Consular Ofﬁcer program recommendations
   when posts do not comply. (Action: CA)

 Recommendation 4: The Bureau of Consular Affairs should review all materials
   posted on the Regional Consular Ofﬁcer Forum Web site for relevance, accuracy,
   and timeliness, in particular post-produced guidelines and standard operating pro-
   cedures, and establish a process for regular review and updating. (Action: CA)

 Recommendation 5: The Bureau of Consular Affairs should establish a follow-up
   mechanism to track Consular Management Assistance Team recommendations,
   post responses, and feedback to visited posts. (Action: CA)




OIG Report No. ISP-I-11-18 - RCO and CMAT Programs - January 2011                       13 .


                        SENSITIVE BUT UNCLASSIFIED
       SENSITIVE BUT UNCLASSIFIED





14 .           OIG Report No. ISP-I-11-18 - RCO and CMAT Programs - January 2011


       SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED





    LIST OF INFORMAL RECOMMENDATIONS

 Informal recommendations cover operational matters not requiring action by orga-
 nizations outside the inspected unit and/or the parent regional bureau. Informal
 recommendations will not be subject to the OIG compliance process. However, any
 subsequent OIG inspection or on-site compliance review will assess the mission’s
 progress in implementing the informal recommendations.

 There is no formal reporting SOP for RCO reports.

 Informal Recommendation 1: The Bureau of Consular Affairs should codify and
 update regional consular ofﬁcer reporting guidance into formal standard operating
 procedures.

 While the RCO has complete information on the RCO program, the posts that are
 covered by the RCO program are only given a few resources.

 Informal Recommendation 2: The Bureau of Consular Affairs should prepare a
 more complete guide for posts covered by the Regional Consular Ofﬁcer program.




OIG Report No. ISP-I-11-18 - RCO and CMAT Programs - January 2011                    15 .


                        SENSITIVE BUT UNCLASSIFIED
       SENSITIVE BUT UNCLASSIFIED





16 .           OIG Report No. ISP-I-11-18 - RCO and CMAT Programs - January 2011


       SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED





                                ABBREVIATIONS

 CA                            Bureau of Consular Affairs
 CA/EX                         Executive Ofﬁce, Bureau of Consular Affairs
 CMAT                          Consular Management Assistance Team
 OIG                           Ofﬁce of Inspector General
 MRV                           Machine-Readable Visa
 RCO                           Regional Consular Ofﬁcer




OIG Report No. ISP-I-11-18 - RCO and CMAT Programs - January 2011            17 .


                        SENSITIVE BUT UNCLASSIFIED
       SENSITIVE BUT UNCLASSIFIED





18 .           OIG Report No. ISP-I-11-18 - RCO and CMAT Programs - January 2011


       SENSITIVE BUT UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
              of Federal programs
         and resources hurts everyone.

       Call the Office of Inspector General
                    HOTLINE
                   202-647-3320
                or 1-800-409-9926
         or e-mail oighotline@state.gov
      to report illegal or wasteful activities.

              You may also write to
           Office of Inspector General
            U.S. Department of State
              Post Office Box 9778
              Arlington, VA 22219
           Please visit our Web site at:
               http://oig.state.gov

        Cables to the Inspector General
       should be slugged “OIG Channel”
           to ensure confidentiality.
